                         U.S. Department of Agriculture

                            Office of Inspector General
                                        Midwest Region




               Audit Report

            Implementation of the
Government Performance and Results Act in the
   United States Department of Agriculture




                                            Report No.
                                        50601-0006-Ch
                                       September 2004
                  UNITED STATES DEPARTMENT OF AGRICULTURE

                                   OFFICE OF INSPECTOR GENERAL


                                        Washington, DC 20250




DATE:          September 17, 2004

REPLY TO
ATTN OF:       50601-0006-Ch

SUBJECT:       Implementation of the Government Performance and Results Act in the
               United States Department of Agriculture

TO:            Patricia E. Healy
               Acting Chief Financial Officer

               Stephen B. Dewhurst
               Director
               Office of Budget and Program Analysis


This report presents the results of our audit of the U.S. Department of Agriculture’s
Implementation of the Government Performance and Results Act. The Office of Budget and
Program Analysis and the Office of the Chief Financial Officer’s response to the official draft,
received on August 9, 2004, is included in its entirety as exhibit B, with excerpts and the Office
of Inspector General’s position incorporated into the Findings and Recommendations section of
the report.

Based on the information contained in the response, we have reached management decision on
all recommendations and, therefore, no further correspondence with our office is necessary. If
you have any questions, please contact me at 202-720-6945, or have a member of your staff
contact Richard Davis, Director, Administration and Finance Division, at 202-720-1918.

We appreciate the cooperation and courtesies extended to us during this review.


/S/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit
Executive Summary
Implementation of the Government Performance and Results Act in the United States
Department of Agriculture
Audit Report No. 50601-0006-Ch

Results in Brief             Requiring government agencies to set goals for program performance and to
                             report annual accomplishments compared with those goals, the Government
                             Performance and Results Act (GPRA) of 1993 seeks to improve the
                             effectiveness, efficiency, and accountability of Federal programs. The
                             objective of this audit was to evaluate the United States Department of
                             Agriculture’s (USDA) system of controls over performance planning and
                             reporting for GPRA.

                             One of the President’s initiatives is Budget and Performance Integration
                             (BPI). BPI is intended to link performance to budget decisions. The annual
                             performance plan should be integrated into and form the basis for the
                             “performance budget” submission to Office of Management and Budget
                             (OMB).

                             During the last few years, USDA has revised its Departmental strategic plan,
                             implemented a BPI Board, prepared its first performance budget, and began
                             evaluating its programs using OMB’s Program Assessment Rating Tool
                             (PART). These efforts improved the Department’s performance management
                             system1; however, we found that additional improvements were needed in
                             order to achieve quality and effective GPRA plans and reports. Indicative of
                             this, OMB has given USDA strong rating scores for its “progress” throughout
                             much of our audit, but the lowest possible score for the overall “status” of its
                             implementation of BPI. Subsequent to the conclusion of the audit, OMB
                             rewarded USDA’s continually strong “progress” and efforts with an
                             improved “status” score for the period ending June 30, 2004.

                             USDA has delegated authority for its performance management’s system
                             implementation to two offices, USDA’s Office of the Chief Financial Officer
                             and Office of Budget and Program Analysis. However, because neither of
                             these offices was responsible for ensuring the quality of performance data,
                             USDA was essentially relying on its agencies to support its strategic plan.
                             Over the past several years, USDA’s Office of Inspector General, the General
                             Accounting Office, and other entities have reported problems with various
                             USDA agencies’ performance management processes and results.

                             Our review of the Department’s annual performance plans and reports
                             (including the FY 2004 APP and Revised Plan for FY 2003, and the FY 2002
                             and 2003 PARs) disclosed a variety of deficiencies that compromised the
                             usefulness and reliability of those documents. In our opinion, half of the
1
    The USDA performance management system includes GPRA, BPI, and the PART evaluations.

USDA/OIG-A/50601-0006-Ch                                                                              Page i
                   performance indicators were unclear, did not measure progress toward
                   achieving applicable performance goals, or both. We noted additional
                   problems with target levels, specifically that target levels were not set to
                   achieve their intended goals and reasons for missing target levels were
                   sometimes insufficient or missing.

                   Since concluding our work, USDA initiated its second year of BPI, and with
                   that, added refinements to its performance management processes. Although
                   we have not reviewed the impact or functional nature of these refinements,
                   based on additional information provided by the Department we believe that
                   these processes will have a positive impact on the Department’s internal
                   controls (as discussed in Finding 1), satisfy our recommendations and, over
                   time, work to address agency performance problems (as discussed in
                   Findings 2 and 3).

Recommendations
In Brief           We recommended that the Department integrate its GPRA and BPI processes
                   and related guidance to clarify the roles and responsibilities for the
                   performance management system, and work to correct performance
                   management deficiencies throughout the Department. We also recommend
                   revision of the 2004 APP to incorporate improved performance measures
                   developed for the 2005 performance budget, and USDA work to improve its
                   performance measures and targets.

Agency Response    In its response to the official draft report, dated August 9, 2004, the Office of
                   Budget and Program Analysis and the Office of the Chief Financial Officer
                   agreed with our recommendations.                  Furthermore, each of the
                   recommendations have already been addressed either by incorporation in
                   guidance or by other activities initiated by the department. A summary of
                   their response to each recommendation can be found within the Findings and
                   Recommendations section of this report. The response is included in its
                   entirety as exhibit B of this report.

OIG Position       Based upon USDA’s response, we have reached management decisions on all
                   recommendations. Requirements for final action are listed under OIG
                   Position for each recommendation within the Findings and Recommendations
                   section of the report.




USDA/OIG-A/50601-0006-Ch                                                                    Page ii
Abbreviations Used in This Report


APHIS               Animal and Plant Health Inspection Service
APP                 Annual Performance Plan
APR                 Annual Program Performance Report
BPI                 Budget and Performance Integration
B&I                 Business and Industry (Loan)
CFO                 Chief Financial Officer
DOL                 United States Department of Labor
DWPT                Department-wide Planning Team
FMFIA               Federal Managers Financial Integrity Act
FAS                 Foreign Agricultural Service
FS                  Forest Service
FSA                 Farm Service Agency
FY                  Fiscal Year
GAO                 United States General Accounting Office
GPRA                Government Performance and Results Act of 1993
OBPA                Office of Budget and Program Analysis
OCFO                Office of the Chief Financial Officer
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
PAR                 Performance and Accountability Report
PART                Program Assessment Rating Tool
PMA                 President’s Management Agenda
RD                  Rural Development
USDA                United States Department of Agriculture




USDA/OIG-A/50601-0006-Ch                                             Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objective .................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1. Internal Controls Over USDA’s Performance Management System .......................... 5

        Finding 1             USDA Needs to Strengthen and Improve Coordination in It’s Performance
                              Management System ............................................................................................... 6
                                  Recommendation No. 1.................................................................................... 9
                                  Recommendation No. 2.................................................................................. 10
                                  Recommendation No. 3.................................................................................. 10
        Finding 2             USDA Needs to Utilize Internal/External Reviews to Improve Agencies’
                              Performance Management..................................................................................... 11
                                  Recommendation No. 4.................................................................................. 14
        Finding 3             USDA’s Performance Plans and Reports Need Improvement.............................. 15
                                  Recommendation No. 5.................................................................................. 19

Scope and Methodology........................................................................................................................ 21

Exhibit A – Budget and Performance Integration Implementation Status..................................... 23

Exhibit B – Agency Response............................................................................................................... 25

Glossary of Terms ................................................................................................................................. 29




USDA/OIG-A/50601-0006-Ch                                                                                                                   Page iv
Background and Objective
Background                  In 1993, Congress enacted the Government Performance and Results Act2
                            (GPRA or the Act) to improve the American people’s confidence in the
                            government by holding Federal agencies accountable for achieving program
                            results. According to the Senate Committee on Government Affairs, the
                            purpose of GPRA is to improve the efficiency and effectiveness of Federal
                            programs by establishing a system to set goals for program performance and
                            to measure results.

                            Plans and Reports

                            Under GPRA, Federal agencies [departments] must plan and report program
                            performance using three kinds of documents: strategic plans, annual
                            performance plans, and annual performance reports (referred to collectively
                            throughout this report as “plans and reports”).

                            •    The strategic plan provides the framework for implementing all other
                                 parts of the Act and sets out a long-term course of action. It describes
                                 general goals and objectives, the means and strategies to achieve them,
                                 and the relationship between those goals and the more specific
                                 performance goals in the annual performance plan (APP).

                            •    The APP forecasts accomplishments during a fiscal year (FY) by
                                 establishing measurable performance goals, indicators, and/or measures.
                                 Performance indicators/measures and corresponding numerical target
                                 levels measure goal achievement. A revised final APP must reflect
                                 Congressional action on budget requests.3

                                 Beginning with the budget for FY 2005, a performance budget should
                                 be prepared in lieu of the APP for the Department’s submission to
                                 Office of Management and Budget (OMB) and Congress. The
                                 performance budget, which should satisfy all statutory requirements for
                                 the APP, is integrated with other elements of the Departmental budget
                                 request to OMB and the Congressional justification.4 The United States
                                 Department of Agriculture (USDA) integrated performance information
                                 into the “Explanatory Notes” section of its budget submission.



2
  Public Law 103-62, Government Performance and Results Act of 1993
3
  OMB Circular A-11, Part 6, Section 220.1, dated June 2002
4
  OMB Circular A-11, Part 6, Section 220, dated July 2003




USDA/OIG-A/50601-0006-Ch                                                                          Page 1
                                •    The annual performance report (APR) presents information on actual
                                     performance and progress in achieving the annual goals, indicators, or
                                     measures in the APP and the general goals and objectives in the
                                     strategic plan. If necessary, the APR explains why the target level for a
                                     particular goal was not met and describes the steps being taken to
                                     accomplish that goal in the future. USDA uses its agencies’ plans and
                                     reports to compile the Department’s comprehensive APR, included in
                                     its Performance and Accountability Report (PAR).

                               President’s Management Agenda

                               In August 2001, the President announced an agenda for reforming the
                               management of the government and improving the performance of Federal
                               programs. The President’s Management Agenda (PMA) aims not only to
                               correct long-standing problems, but also to improve the government’s
                               performance. Focusing on areas where the need and opportunity to improve
                               are greatest, the PMA introduced five government-wide initiatives that
                               represent longstanding management challenges for the Federal government,
                               including Budget and Performance Integration (BPI).

                               The BPI initiative calls for greater focus on performance and formal
                               integration of performance information with budget decisions. According to
                               OMB, BPI should build upon the performance management framework
                               established by GPRA. For BPI, agencies are expected to identify high
                               quality outcome measures, accurately monitor the performance of programs,
                               and begin integrating performance measures with associated cost.
                               OMB Circular A-115 states that the APP, aligned with the recently approved
                               strategic plan, should explain the Department’s planned activities for
                               FY 2005 that justify budget requests. The APP should be integrated into and
                               form the basis for the performance budget submission to OMB. Because
                               legal requirements for the APP would be met by the performance budget, a
                               separate APP need not be prepared to comply with GPRA.

                               As a tool to put results-oriented government into practice, OMB and USDA
                               agencies began the systematic assessment of program performance using the
                               Program Assessment Rating Tool (PART), which evaluates a program’s
                               purpose and design, planning, management, and results and accountability to
                               determine its overall effectiveness. PART, which is a series of questions
                               designed to provide a consistent approach to rating programs across the
                               Federal Government, is a diagnostic tool that relies on objective data to
                               make evidence-based judgments and to assess and evaluate programs across
                               a wide range of issues related to performance. Each program reviewed by

5
    OMB Circular A-11, Part 2, Section 26.3, dated July 2003




USDA/OIG-A/50601-0006-Ch                                                                               Page 2
                            PART receives one of four ratings: (1) effective; (2) moderately effective;
                            (3) adequate; or (4) ineffective based on program design, strategic planning,
                            management, and results. A fifth rating, “results not demonstrated,” can be
                            given if OMB decides that a program’s performance information,
                            performance measures, or both were insufficient or inadequate.

                           USDA’s Performance Management Systems’ Infrastructure

                           USDA’s Performance Management Guidance6 outlines the process to
                           establish strategies, make decisions, allocate resources, and manage
                           programs safely, effectively, and efficiently in ways that are consistent with
                           its GPRA plans and reports. In the execution of this Guidance, USDA used
                           a performance management approach containing three primary infrastructure
                           elements: (1) Departmental leadership; (2) the Department-wide Planning
                           Team (DWPT); and (3) agency performance management coordinators.
                           Besides providing policy direction, Departmental leaders (i.e., the Secretary,
                           Subcabinet officials, and agency heads) review and approve all GPRA plans
                           and reports prior to submitting them to Congress.

                           The Budget Manual, revised annually by USDA’s Office of Budget and
                           Program Analysis (OBPA), addresses the Department’s requirements for
                           BPI. Chapters 11, 12, and 13 of this manual address the performance budget
                           and provide the specific requirements for agencies regarding agency
                           estimates, Department estimates, and explanatory notes, respectively.

                           Effective with USDA’s implementation of BPI, the Department created a
                           second performance management system.           Steered by Departmental
                           leadership, USDA’s Office of the Chief Financial Officer (OCFO)
                           coordinates the Department’s original GPRA process.7 OBPA, as the lead
                           agency for implementing BPI in the Department, initiated a second
                           independent process. Both processes gathered performance data from
                           USDA’s agencies to support the strategic plan. The responsibilities for these
                           two offices are as follows:

                               •   OCFO, working with program mission areas and USDA staff offices,
                                   prepares the Department’s strategic plan and coordinates agency
                                   submissions for the APR (as part of the PAR) and the APP. OCFO
                                   formed DWPT, which consists of representatives appointed by
                                   Subcabinet officials, to develop and refine these plans and reports.
                                   As stated in the DWPT Charter,8 representatives have the authority to

6
  USDA 2002 Performance Management Guidance, version 1.6, pages 1 – 3, dated January 30, 2003
7
  USDA 2002 Performance Management Guidance, version 1.6, pages 1 & 2, dated January 30, 2003
8
  Charter for the Department-wide Planning Team, page 2, dated June 20, 2003




USDA/OIG-A/50601-0006-Ch                                                                          Page 3
                                      speak for their respective mission area or staff office in the
                                      development of GPRA plans and reports, and they should work
                                      together to reach consensus on issues relevant to the content of those
                                      documents.

                                  •   OBPA is responsible for compiling and submitting the Department’s
                                      performance budget, which should incorporate the APP beginning
                                      with the FY 2005 budget process. To do so, OBPA originally began
                                      its BPI implementation with pilots in a few of USDA’s agencies.
                                      However in February 2003, the USDA Secretary and Deputy
                                      Secretary identified BPI as a priority area for policy level attention in
                                      the preparation of the Department’s FY 2005 budget. It was decided
                                      to implement BPI Department-wide instead of only with pilot
                                      agencies. The Deputy Secretary established and chaired a BPI
                                      Board9 to oversee the Department’s implementation of BPI.

                                  •   Over the past few months, OCFO and OBPA have collaborated to
                                      develop a planning and reporting process to meet the requirements of
                                      both GPRA and the PMA. On March 31, 2004, OCFO and OBPA
                                      issued instructions expected to produce the FY 2005 APP and
                                      Revised Plan for FY 2004, and implement a “Quarterly Reporting
                                      Process” that will provide policy officials with program performance
                                      and financial information. On May 10, 2004, OBPA issued guidance
                                      for the FY 2006 BPI process that indicates the status and quality of
                                      agency plans and PART reviews would be discussed in later
                                      meetings with the BPI Board, and that agency plans were already
                                      under review by OBPA and OCFO. The guidance also suggests
                                      “Key Questions to Consider” for agencies that include “do agency
                                      strategic plans relate directly to the Department’s Strategic Plan” and
                                      for agencies to determine “which key agency performance measures
                                      support the Secretary’s Strategic Objectives”.

Objective                     The objective of this audit was to evaluate the system of controls over
                              Departmental performance planning and reporting for GPRA. This included
                              assessments of:     Departmental oversight of GPRA activities; the
                              development of performance measures to determine if they support the
                              Department’s strategic goals; the validity and verifiability of reported
                              performance data; and the implementation of BPI.




9
 BPI Board is comprised of the Deputy Secretary, the Chief Financial Officer, the Chief Information Officer, and the
Director of OBPA




USDA/OIG-A/50601-0006-Ch                                                                                         Page 4
Findings and Recommendations
Section 1. Internal Controls Over USDA’s Performance Management System

                   The Department has taken strides to improve its performance management
                   system, which encompasses GPRA and BPI activities. USDA revised its
                   strategic plan in September 2002; began evaluating its programs using
                   OMB’s PART during the FY 2004 budget process; created a BPI Board
                   chaired by the Deputy Secretary; and in FY 2003 it shifted from piloting BPI
                   in a few agencies to implementation Department-wide, resulting in the
                   submission of over 400 performance indicators to OMB in its FY 2005
                   Department Estimates. Similar to our findings, USDA’s BPI scorecard from
                   OMB is reflective of USDA’s efforts, as OMB has given USDA strong
                   scores for its “progress” throughout our review, but USDA consistently
                   received the lowest possible score for the overall “status” of its BPI
                   implementation. Subsequent to our audit work, OMB has rewarded the
                   Department’s strong “progress” with an improved “status” score for the
                   period ending June 30, 2004.

                   Our review of the Department’s annual performance plans and reports
                   (including the FY 2004 APP and Revised Plan for FY 2003, and the
                   FY 2002 and 2003 PARs) disclosed a variety of deficiencies that
                   compromised the usefulness and reliability of those documents. In our
                   opinion, half of the Department’s performance indicators were unclear (see
                   Finding 3, Table 1), did not measure progress toward achieving applicable
                   performance goals, or both. We noted additional problems with target
                   levels, specifically that target levels were not set to achieve their intended
                   goals and reasons for missing target levels were sometimes insufficient or
                   missing.

                   During our review, the Department’s performance management program was
                   undergoing significant change. On one front the Department originally
                   implemented a GPRA process under OCFO. On another front, the Deputy
                   Secretary, the BPI Board and more specifically OBPA were implementing a
                   new process for BPI. However, as neither OBPA nor OCFO were
                   responsible for ensuring the quality of the performance data, USDA was
                   essentially relying on its agencies to support its strategic plan. Even though
                   some of their duties overlapped during this transitional period, the two
                   offices were slow to join forces to fulfill USDA’s performance management
                   responsibilities. The BPI Board, which included top officials from both
                   OCFO and OBPA, fell short of creating a plan for integrating all GPRA
                   processes. This problem extended from the Department level downward to
                   the DWPT, and the agency-level, as discussed in Findings 2 and 3. Since




USDA/OIG-A/50601-0006-Ch                                                                  Page 5
                   concluding our work, USDA has initiated plans and actions to further
                   integrate and strengthen its process.


Finding 1          USDA Needs to Strengthen and Improve Coordination within It’s
                   Performance Management System

                   We identified weaknesses in USDA’s system of internal control over
                   performance management, weaknesses which USDA has initiated actions to
                   address. A key weakness and inhibiting factor in USDA’s performance
                   management system was that coordination between two offices, and
                   integration of its original GPRA and BPI processes, was slow to evolve.
                   Related plans and guidance were weakened as a result and in FY 2003
                   USDA’s agencies had to submit data for both systems, further resulting in
                   confusion amongst agencies. We also found that no one was responsible for
                   ensuring the quality of performance data at the Department level, thus
                   placing reliance upon USDA’s agencies for linkage and support of the
                   strategic plan. This was a concern because weaknesses have been reported
                   with various USDA agencies’ performance management processes and
                   results. (See Finding 2.)

                   USDA’s Performance Management Systems

                   For some time two staff offices, OCFO and OBPA, held the role of
                   coordinator for one of USDA’s two performance management systems.
                   Each staff office published guidance and established a system to collect and
                   consolidate performance information at the Department level. Integration of
                   these two processes was slow to evolve. Although each staff office had
                   taken its role as coordinator seriously, neither was accountable for the
                   production, verification, or validation of the performance data received. In
                   FY 2003, USDA’s agencies had to submit performance information for both
                   systems.

                   OCFO was tasked with implementing GPRA in USDA, and since then, has
                   had responsibility for publishing USDA’s strategic plan, APP, and PAR.
                   During FY 2003 and FY 2004, OCFO continued to pursue these
                   responsibilities resulting in the FY 2004 APP and Revised Plan for FY 2003,
                   and the FY 2003 PAR. OCFO’s process included a committee (the DWPT)
                   as a key control over agency-submitted data, but we found that the
                   committee was not an effective oversight control.

                   OBPA was assigned responsibility for implementing BPI and in FY 2003,
                   the BPI Board and OBPA spearheaded an effort to link performance with
                   USDA’s FY 2005 budget. OBPA included the results of this effort in the




USDA/OIG-A/50601-0006-Ch                                                                Page 6
                              Department Estimates, which were submitted to OMB in September 2003.
                              Next, OBPA asked agencies to submit only their key indicators for inclusion
                              in the Explanatory Notes, which were published in February 2004.

                              Although each staff office (OCFO/OBPA) did participate in the
                              development of plans and reports, neither had line authority over the
                              functions producing the data. By assigning staff offices to coordinate the
                              implementation of GPRA, the Department was relying on its agencies to
                              provide quality information. Although we didn’t evaluate agency processes
                              as part of this audit, our prior audit work has disclosed a number of agency
                              performance management weaknesses (see Finding 2) that directly
                              questioned their ability to produce quality performance data. In spite of
                              these weaknesses, no additional controls were added by the Department to
                              compensate for, or to determine the extent of the problem.

                              In the OCFO coordinated process, USDA’s Performance Management
                              Guidance10 indicated the DWPT was responsible for ensuring appropriate
                              content of agency plans and reports. We found that the DWPT was not
                              effective in that regard. The five DWPT members and the DWPT leader we
                              interviewed said they had not discussed and reached consensus on issues
                              relevant to the content of USDA plans and reports, as required by the
                              guidance. Instead, DWPT members operated as separate conduits for their
                              respective agency’s information, rather than working together to ensure the
                              Department’s compliance with GPRA requirements. The DWPT members
                              we interviewed explained that their workload of non-GPRA tasks allowed
                              them to only devote a limited amount of time to GPRA duties and prevented
                              them from holding group discussions of details in the performance reports.
                              Also, not all DWPT members had received training on performance
                              management. Because it viewed itself largely as a facilitator of the GPRA
                              process, OCFO has not overseen the particulars of the DWPT’s activities.

                              Early in 2003, the Deputy Secretary chaired a BPI Board made up of high-
                              level Departmental leaders (the Chief Financial Officer (CFO), the Chief
                              Information Officer, and the Director of OBPA) to oversee the Department’s
                              BPI implementation efforts. Actively involved at the initial stages of the BPI
                              process, the board reviewed and provided input to each agency’s plan.

                              The OBPA executed its role in the BPI process by issuing instructions,
                              providing input to agencies during the performance measure development
                              process, and by consolidating agency submissions into the
                              FY 2005 Department Estimates that were sent to OMB in September 2003,


10
     USDA Performance Management Guidance, Version 1.6, pages 1 & 2, dated January 30, 2003




USDA/OIG-A/50601-0006-Ch                                                                             Page 7
                             and the FY 2005 Performance Budget and accompanying Explanatory Notes
                             in February 2004.

                              Planning and Guidance

                              During USDA’s implementation of GPRA and its transitional adjustments to
                              incorporate BPI, Departmental planning and guidance could have been
                              better. For example, the Department did not plan in advance how it intended
                              to integrate its two different performance management processes and results.
                              Also, guidance from OCFO and OBPA did not completely address the
                              process or provide clear information to USDA’s agencies.

                              On January 23, 2004, the Acting CFO sent a survey to all agency heads and
                              staff office directors requesting input on the Department’s strategic planning
                              process. The summary of responses states, “There is limited coordination,
                              integration, alignment, and streamlining of reporting requirements (i.e., BPI,
                              GPRA, PART, and PMA).” Related comments include, “Agencies agree
                              that better coordination and integration of the management processes need to
                              occur at the Department level”, and             “Guidance for all reporting
                              requirements needs to be finalized and provided to agencies as soon as
                              possible”.

                              USDA’s Performance Management Guidance11 was not updated to address
                              the existence and emergence of BPI, the BPI Board, OBPA’s BPI
                              implementation role, or how OCFO and OBPA would coordinate their
                              responsibilities. OBPA’s Budget Manual also did not address the overall
                              performance management system, only the requirements for agencies to
                              provide input for the performance budget process.

                             Departmental planning for performance management could have been better.
                             As recent as January 2004, both OBPA and OCFO were designing quarterly
                             reporting processes for their respective performance management systems.
                             Also, OBPA was still working on what document it would submit as the
                             Department’s consolidated FY 2005 APP, and how it would be made
                             available to the public. At that time it was unclear whether OBPA or OCFO
                             would be publishing a Revised FY 2004 APP (as part of the FY 2005 APP)
                             that would be the basis of the FY 2004 PAR due November 15, 2004.
                             Because our analysis (in Finding 3) determined the Department’s FY 2003-
                             04 performance indicators were weak, and the 2005 BPI process included
                             input from the Deputy Secretary and BPI Board, revising 2004 data could
                             improve the Department’s FY 2004 plans and reports.                   Over
                             400 performance indicators were included in the Department Estimates by

11
     USDA Performance Management Guidance, Version 1.6, dated January 30, 2003




USDA/OIG-A/50601-0006-Ch                                                                             Page 8
                   OBPA, a drastic change from the FY 2004 APP and Revised Plan for
                   FY 2003, which only included 82 performance indicators. On March 31,
                   2004, OBPA/OCFO published a plan to integrate their performance
                   processes, and to adjust the Department’s FY 2004 plans and reports.

                   For the last 4 quarters ending March 31, 2004, OMB has given USDA the
                   highest possible score for its “progress” in implementing the BPI initiative.
                   However, for the last 8 quarters OMB has given USDA the lowest possible
                   rating for its current “status” in achieving the BPI initiative. USDA’s low
                   status scores in meeting OMB’s “Standards for Success” for BPI mean that a
                   number of problem areas are preventing the Department from achieving
                   budget and performance integration. Exhibit A presents our analysis of
                   USDA’s accomplishments at the time of our work, and what the Department
                   still needed to do to get to a mid-range score, and to fully implement BPI
                   Department-wide. USDA’s scores for progress indicate that it is moving
                   toward successful implementation of BPI, and since the completion of our
                   audit, OMB has raised the Department’s “status” score for the period ending
                   June 30, 2004.

Recommendation No. 1

                   We recommend that OBPA/OCFO strengthen the system of internal controls
                   by integrating its GPRA and BPI processes into one consolidated
                   Department-wide performance management system.

                   Agency Response.

                   In its response dated August 9, 2004, OBPA/OCFO officials agreed with the
                   recommendation and iterated that in March 2004, they jointly sent guidance
                   to all pertinent parties that set forth the parameters for one consolidated
                   performance management reporting process. This guidance supercedes prior
                   issuances, and provides for the collection of one set of performance
                   information that will be used for quarterly reporting under BPI and for the
                   preparation of the Department’s Annual Performance Report under GPRA.

                   OIG Position.

                   We accept OBPA/OCFOs’ management decision. No further action is
                   needed to achieve final action for this recommendation.




USDA/OIG-A/50601-0006-Ch                                                                 Page 9
Recommendation No. 2

                   We recommend that OBPA/OCFO issue guidance that establishes and
                   supports an integrated performance management system, and defines the
                   roles and responsibilities of all its participants.

                   Agency Response.

                   OBPA/OCFO officials agreed with the recommendation and issued guidance
                   on March 30, 2004, that sets forth the parameters for one consolidated
                   performance management reporting process. The response also clarifies that
                   OCFO maintains responsibility for strategic planning and performance
                   management reporting. OBPA is responsible for the development of the
                   budget, which now incorporates the annual performance plan. The Deputy
                   Secretary leads this effort through the Department’s BPI Board, which
                   includes the Budget Officer and the Chief Financial Officer as members.
                   OBPA and OCFO staffs have day-to-day responsibilities for strategic and
                   performance planning and reporting.

                   OIG Position.

                   We accept OBPA/OCFOs’ management decision. No further action is
                   needed to achieve final action for this recommendation.

Recommendation No. 3

                   We recommend that OBPA/OCFO revise the FY 2004 APP to incorporate
                   revised performance measures developed for the FY 2005 performance
                   budget and FY 2005 APP. Ensure selected measures support the
                   Department’s strategic goals and objectives.

                   Agency Response.

                   In accordance with OMB Circular A-11, USDA’s FY 2005 Explanatory
                   Notes, sent to the Appropriations Committee and Subcommittees in the
                   House and Senate in February 2004, meet the requirements for a
                   performance budget, including providing performance targets for FY 2005
                   and revised targets for FY 2004.

                   OIG Position.

                   Based upon the March 30, 2004, guidance titled “Annual Performance Plan
                   for Fiscal Year (FY) 2005 and Revised Annual Performance Plan for FY
                   2004 and Quarterly Reporting Process, and actions initiated thereto, we




USDA/OIG-A/50601-0006-Ch                                                             Page 10
                              accept OBPA/OCFOs’ management decision. No further action is needed to
                              achieve final action for this recommendation.


Finding 2                     USDA Needs to Utilize Internal/External Reviews to Improve
                              Agencies’ Performance Management

                             Internal and external evaluations have pointed out room for improvement in
                             USDA agencies’ performance management processes and results. However,
                             the Department has not always used those critiques as opportunities to
                             strengthen its performance management system at the agency level. Because
                             the Department’s GPRA documents are based (in part) on agency generated
                             material and reports, the quality and usefulness of agency material is critical
                             to the overall performance management process.

                             Outside evaluators such as OMB and George Mason University’s Mercatus
                             Center12 have reported flaws in the performance management system.
                             According to the FY 2002 Mercatus report released in 2003, USDA’s PAR
                             was difficult for ordinary citizens to understand, and the Department seemed
                             hesitant to acknowledge problems identified by the Office of Inspector
                             General (OIG). Consistent with the findings of our audit, the Center faulted
                             USDA’s report for containing a number of performance measures that were
                             not directly related to key outcomes and for failing to explain how its
                             accomplishments made America a better place to live. In its latest review of
                             USDA’s FY 2003 PAR, dated April 2004, Mercatus credits USDA with
                             “notable improvements” including:          “… accessibility of its report,
                             articulation of public benefits, explanation of failures, and development of
                             plans to improve performance in the future”. The Mercatus report also
                             indicates the need for additional improvements including, “reasons
                             underlying some quantitative targets are unclear”, need to adjust how some
                             activities or outputs “only have a tenuous connection to outcomes”, and
                             although the PAR does describe steps to address management challenges,
                             “timeliness for some indicate little urgency”.




12
  For the last 4 years, the Center has ranked Federal agencies’ annual performance and accountability reports on how
effective they are in disclosing pertinent information to the American people.




USDA/OIG-A/50601-0006-Ch                                                                                       Page 11
                              PART Results Illustrate Continued Unknown Program Effectiveness

                              To fulfill the requirements for the FY 2004 performance budget set out in
                              OMB Circular A-11, USDA agencies began using OMB’s PART to
                              systematically assess program performance. PART evaluates a program’s
                              purpose and design, planning, management, and results and accountability to
                              determine its overall effectiveness.

                              Each program reviewed by PART receives one of four ratings ranging from
                              effective to ineffective based on program design, strategic planning,
                              management, and results. A fifth rating, “results not demonstrated,” can be
                              given if OMB decides that a program’s performance information,
                              performance measures, or both were insufficient or inadequate. Of the
                              32 USDA programs assessed by PART during the FY 2004 and
                              FY 2005 budget processes, 19 received a “results not demonstrated” rating,
                              or over 59 percent. Three of the 12 programs receiving a “results not
                              demonstrated” rating from the FY 2004 process improved to receive an
                              adequate rating in the FY 2005 budget process.

                              It is important to note that the “results not demonstrated” designation means
                              “unknown effectiveness” rather than that the program was “ineffective” or
                              failed. However, based on the inconclusive results, USDA and the agencies
                              involved did not take adequate action to improve the majority of those
                              programs’ performance information and/or performance measures.

                              Audit Report Findings Not Acted Upon

                              Over the past 4 years, OIG and the United States General Accounting Office
                              (GAO) have reported deficiencies with various USDA agency performance
                              management processes and results. Although the OCFO receives copies of
                              all reports issued and is responsible for tracking audits through final
                              corrective actions, the Department has not consistently followed up on the
                              OIG and GAO findings. As a whole, previous audits revealed inadequate
                              internal controls over USDA’s performance management system, resulting
                              in plans and reports that contained inaccurate, unsupported, and unverified
                              data. The following OIG and GAO audits illustrate some of USDA
                              agencies’ performance management problems:

                              •   In 2003, OIG reported that the Animal and Plant Health Inspection
                                  Service (APHIS) based its report of accomplishments on inaccurate and
                                  incomplete information.13 This occurred because APHIS did not have
                                  controls in place to verify the accuracy of its performance information.

13
     OIG Audit Report No. 33601-3-CH dated February 2003.




USDA/OIG-A/50601-0006-Ch                                                                           Page 12
                               We recommended that APHIS implement controls over the collection,
                               calculation, and reporting of performance data for GPRA. As of March
                               2004, OIG and APHIS still had not agreed upon management decision
                               for these recommendations.

                           •   A 2002 OIG audit14 showed that the Farm Service Agency’s (FSA)
                               performance measures were not outcome-oriented and did not
                               demonstrate the agency’s progress in achieving its strategic goals. OIG
                               also found inaccurate and unsupported performance results. We
                               recommended that FSA develop performance measures that are linked to
                               its long-term goals and for which results reported would indicate the
                               degree to which long-term goals are being met. Final action was reached
                               timely on this audit.

                           •   In 2001, an OIG audit disclosed that Rural Development’s (RD) GPRA
                               reports were inaccurate, unsupported, and unverified.15 OIG concluded
                               that RD did not have a formal process for implementing GPRA, as well
                               as written procedures for measuring, accumulating, verifying, and
                               reporting performance data. We recommended that RD implement
                               procedures to ensure the collection and reporting of accurate, complete,
                               and meaningful performance data and establish internal controls that
                               include the definition of each performance indicator and the
                               documentation needed to support the indicators. RD did not reach final
                               action on all 9 recommendations until more than 2 years after issuance of
                               this audit report in March 2001.

                               Again in 2003, OIG reported that RD had based its Business & Industry
                               (B&I) Program performance data on borrower projections rather than the
                               actual number of jobs created and saved by the program.16 As in 2001,
                               RD’s data collection and input controls did not ensure the accuracy of
                               reported results.

                           •   OIG reported in 2000 that Forest Service (FS) had based its GPRA
                               accomplishments on flawed data and assumptions.17 Errors and
                               omissions in supporting data occurred because FS did not incorporate
                               performance reporting into its business processes, and field-level
                               employees did not understand the need for or value of accurate
                               performance reporting. We recommended that FS continue the process
                               of establishing, publishing, and ensuring adequate guidance defining

14
   OIG Audit Report No. 50601-4-CH, dated September 2002
15
   OIG Audit Report No. 50601-2-CH, dated March 2001
16
   OIG Audit Report No. 34601-15-TE, dated September 2003
17
   OIG Audit Report No. 08001-1-HQ, dated June 2000




USDA/OIG-A/50601-0006-Ch                                                                        Page 13
                                each performance measure and setting forth the documentation needed to
                                support reported accomplishments. We also recommended that FS
                                report its ineffective system of internal controls over its performance
                                reporting as a material weakness in the FMFIA report. Over 3 years
                                after issuance of this audit report in June 2000, FS still has not reached
                                final action on 4 of the 6 recommendations, and it does not expect to
                                reach final action until 2005.

                                In 2003, GAO reported that FS has made little progress in resolving its
                                longstanding performance accountability problems and, based on its
                                current efforts, remains years away from implementing a credible
                                performance accountability system.18 GAO pointed out that inadequate
                                coordination at FS headquarters undermined accountability of the
                                performance management system and recommended that FS appoint a
                                senior executive to ensure effective implementation of GPRA.

                             In response to the weaknesses disclosed in these audit reports, the
                             Department could have implemented additional controls over performance
                             planning and reporting, and used the reports to identify other GPRA
                             deficiencies throughout USDA. We concluded that the quality of the
                             Department’s performance management process would have been improved
                             if it had used the audits and other reviews as management tools.

Recommendation No. 4

                             We recommend that OBPA/OCFO develop and implement a system to use
                             available resources (i.e., OIG and GAO audit reports, PART evaluations,
                             etc.) to improve performance management deficiencies throughout the
                             Department.

                             Agency Response.

                             In its response dated August 9, 2004, OBPA/OCFO officials agreed with the
                             recommendation and stated that they review OIG and GAO audit reports,
                             PART evaluations, etc., and use the reports in their review of GPRA and
                             BPI documents and budget proposals. The Department has also established
                             a quarterly reporting process, which includes reports on actions being taken
                             in response to PART findings to improve performance management. The
                             first set of quarterly reports was discussed at meetings of the BPI Board,
                             Under Secretaries, and Assistant Secretaries in May 2004. OCFO has also
                             worked directly with the leadership of the Mercatus Center, other Federal
                             agencies, and participated in Government-wide committees and

18
     GAO Audit Report No. GAO-03-503, dated May 2003




USDA/OIG-A/50601-0006-Ch                                                                         Page 14
                              organizations such as the National Academy of Public Administration, to
                              gain further insight to best practices and ways to improve performance
                              reporting.

                              OIG Position.

                              We accept OBPA/OCFOs’ management decision. No further action is
                              needed to achieve final action for this recommendation.


Finding 3                     USDA’s Performance Plans and Reports Need Improvement

                              Although GPRA took effect 10 years ago, USDA’s performance plans and
                              reports have fallen short of fulfilling the intent of the Act. We reviewed the
                              FY 2002 PAR, the FY 2004 Annual Performance Plan and Revised Plan for
                              FY 2003 (hereinafter referred to as the Revised FY 2003 APP), which
                              reflected USDA’s new strategic plan. Our review disclosed that over half of
                              the performance indicators in both documents were either unclear and/or did
                              not show progress toward achieving the goal they were intended to measure.
                              In addition, we found the reasons provided for not meeting target levels were
                              sometimes missing or insufficient and that targets were not always set to
                              achieve the applicable goal.

                              One of the purposes of the GPRA Act is to initiate program performance
                              reform by setting program goals, measuring program performance against
                              those goals, and reporting publicly on their progress.19

                              The FY 2005 budget process and PART assessments resulted in revised
                              performance measures for some programs, but improvement is still needed.
                              Based on our analysis, we concluded that USDA did not significantly
                              improve its performance goals and indicators from one year to the next.
                              According to Department officials, USDA agencies met with the BPI Board,
                              and separately with OMB staff in an effort to develop improved performance
                              measures, but some measures may still be under development while others
                              may not yet have adequate data to support them. As a result, the Department
                              has limited assurance that it is making progress toward achieving its
                              performance goals.

                              Performance Indicators Not Always Clear or Related to the Applicable Goal

                              According to OMB Circular A-11, performance goals must be defined either
                              in an objective and quantifiable manner, or as sufficiently precise descriptive

19
     Government Performance Results Act of 1993




USDA/OIG-A/50601-0006-Ch                                                                            Page 15
                               statements that allow for accurate determinations of actual performance.20 If
                               a performance goal is not self-measuring, the agency must include in its APP
                               one or more performance indicators for the goal that set out specific,
                               measurable values or characteristics related to the goal that would aid in
                               determining goal achievement. The information must be presented clearly
                               and concisely.21

                               Our review of both the FY 2002 PAR and the Revised FY 2003 APP
                               disclosed that over half of the goals and indicators in both documents were
                               either unclear and/or did not show progress toward achieving the goal they
                               were intended to measure, as shown below. Because it was published
                               towards the end of our fieldwork, we only performed a limited review of the
                               FY 2003 PAR, and did not analyze all the performance information therein.

                               Table 1. Summary of Indicator Deficiencies


                                 Indicator Deficiency              FY 2004 APP and       FY 2002 PAR
                                                                 Revised Plan for 2003
                                     Indicator was                     10 of 82             4 of 74
                                        Unclear                        (12.2%)              (5.4%)
                                Indicator did not show
                                 progress toward the                   11 of 82             28 of 74
                                    applicable goal                    (13.4%)              (37.8%)
                                  Indicator was both
                                  unclear and did not                  24 of 82             12 of 74
                                show progress toward                   (29.3%)              (16.2%)
                                  the applicable goal
                                   Total number of                     45 of 82             44 of 74
                                  deficient indicators                 (54.9%)              (59.5%)

                               The plans and reports often contained indicators that called for
                               “maintaining” or “preserving” a level of performance when the goal was to
                               “improve” or “increase” an area, respectively. In these cases it was unclear
                               how the indicator pertained to the goal—that is, how maintaining a program
                               accomplishment level actually increased USDA achievements.              For
                               example, the two FSA indicators in the Revised FY 2003 APP, “maintain
                               the direct loan delinquency rate at or below 15%” and “maintain the direct
                               loan loss rate at or below 5%,” did not show progress in achieving the
                               performance goal they were intended to measure, “improve fiscal soundness
                               of the direct loan portfolio.” Also, the agency increased the 15 percent
                               target level from the previous year, thus raising the question of how the


20
     OMB Circular A-11, Part 6, Section 220.3, dated June 2002
21
     OMB Circular A-11, Part 6, Section 222.2, dated June 2002




USDA/OIG-A/50601-0006-Ch                                                                               Page 16
                   indicator demonstrates progress toward enhanced fiscal soundness at the
                   same time that it increases the expected delinquency rate.

                   An FSA official informed us that these two indicators came from the
                   agency’s APP, but that plan did not have as a goal “to improve fiscal
                   soundness.” OCFO tried to link these agency indicators to the Department’s
                   strategic goal, but the FSA official agreed that the “maintain” indicators did
                   not show progress toward “improving” the loan portfolio. However, he did
                   not agree that the heightened target level of 15 percent was inappropriate.
                   Considering the poor economy and the high-risk nature of the direct loan
                   program, FSA believed that this target level was appropriate. However, the
                   agency should have provided this explanation in its written report.

                   To further illustrate, the performance indicator, “reduce the B&I portfolio
                   delinquency rate,” does not show progress toward the goal to “improve rural
                   economic opportunities.” The DWPT member for RD stated that this
                   indicator was used because delinquency rates were a priority for the agency.

                   In contrast, we noted other indicators that were both clear and related to the
                   goal they were intended to measure. In the Revised FY 2003 APP, the
                   indicator “increase the number of commodities eligible for crop insurance”
                   shows progress toward the goal “expand USDA risk management tools
                   available for agricultural producers to use in managing production and price
                   risks.” In this case, USDA clearly demonstrated how it would expand the
                   number of risk management tools available to producers.

                   Of the 45 deficient performance measures we identified in the Revised
                   FY 2003 APP, the majority were not present in the FY 2005 Department
                   Estimates. However, 10 performance measures that we judgmentally
                   selected from the FY 2005 Department Estimates were also deficient. While
                   we realize the provisional nature of the Department Estimates, the control
                   weaknesses (as discussed in Findings 1 and 2) and these problematic
                   performance measures lead us to conclude that the BPI process has not
                   greatly improved the quality of USDA’s performance plans and reports.




USDA/OIG-A/50601-0006-Ch                                                                Page 17
                               Missing or Insufficient Reasons For Not Meeting Targets and Target Levels
                               Not Set to Achieve Goals

                               We also identified problems related to performance targets in both the
                               FY 2002 PAR and in the Revised FY 2003 APP. These problems related to:
                               (1) the reasons for not meeting targets were sometimes missing or
                               insufficient; and (2) targets were not always set to achieve the applicable
                               goal. OMB requires that performance reports explain why agencies did not
                               meet a target level.22

                               Table 2. Summary of Target Deficiencies


                                   Target Deficiency               FY 2004 APP and         FY 2002 PAR
                                                                 Revised Plan for 2003
                               Insufficient or missing                                        13 of 18
                               reason for not meeting                    N/A                   (72%)
                               target
                               Target not set to achieve               10 of 82               18 of 74
                               the applicable goal                      (12%)                  (24%)

                                     •   We evaluated the reasons given for not meeting the target levels for
                                         18 of the 24 unmet indicators in the FY 2002 PAR. Reasons were
                                         missing for 8 and insufficient for 5 of the 18 performance indicators
                                         evaluated.

                                         For example, no explanation was given in the PAR for the annual
                                         performance indicator regarding trade opportunities preserved, for
                                         which FAS missed its target of $2.2 billion by $873 million (or
                                         almost 40 percent). When asked why no reason was given, the
                                         DWPT member representing FAS told us that he was unable to
                                         obtain adequate information from the program staff.

                                     •   We evaluated the target levels for all 74 of the performance
                                         indicators in the FY 2002 PAR and all 82 of the performance
                                         indicators in the Revised FY 2003 APP. The target levels for 18 of
                                         the 74 performance indicators in the PAR and 10 of the
                                         82 performance indicators in the Revised FY 2003 APP were not set
                                         to accomplish the goal, performance measure, or key outcome they
                                         were intended to measure.

                                         For example, the FY 2002 target level for the FAS performance
                                         indicator “annual sales reported by U.S. exporters from on-site sales

22
     OMB Circular A-11, Part 6, Section 231.4, dated June 2002




USDA/OIG-A/50601-0006-Ch                                                                             Page 18
                           at international trade shows” was set at $250 million, which was a
                           decrease of $110 million from the actual FY 2001 level of
                           $360 million. However, the performance goal was to “increase U.S.
                           agricultural trade.”

                           When questioned about this discrepancy, the DWPT member for
                           FAS said that the program staff set the target levels, and that they
                           had reduced the amount of sales from prior years because of a shift
                           in program emphasis from large companies to smaller minority-
                           owned companies. However, the agency should have explained this
                           program change when it dramatically reduced the target level.

                   OCFO officials stated that their responsibility is only to coordinate the
                   GPRA data submitted by the agencies. Likewise, DWPT members told us
                   that it is the responsibility of the agency’s program staff to submit proper
                   information for the Department’s GPRA reports.

                   Although some DWPT members concurred with our assessment that certain
                   indicators were problematic, some disagreed. Those that disagreed
                   embedded their reasons in additional explanations of how a program
                   functioned in relation to the indicator. Unfortunately, readers of the
                   Department’s plans and reports have access only to the published results, not
                   the additional verbal explanations we were given. DWPT respondents also
                   explained that some of the faulty indicators included information that the
                   Administration, Congress, or Departmental leadership had wanted, or that
                   the indicators were the best available at that time. From these responses, we
                   were unable to obtain a clearer understanding of the information or whether
                   progress toward achieving the performance goals in question had, in fact,
                   been achieved.

                   In regard to target levels not set to accomplish goals, the DWPT members
                   cited budget cuts, changes in program objectives, and influences out of the
                   agency’s control. The DWPT members generally agreed that the unmet
                   targets were not adequately explained.


Recommendation No. 5

                   We recommend that OBPA/OCFO design and implement a Department-
                   wide system to ensure that: (1) goals and indicators show progress toward
                   achievement of the applicable goal; (2) reasons are given when targets are
                   missed; and, (3) target levels are set to achieve the intended goal.




USDA/OIG-A/50601-0006-Ch                                                                Page 19
                   Agency Response.

                   In their response dated August 9, 2004, OBPA/OCFO officials agreed with
                   the recommendation and described how they will continue to emphasize the
                   development of outcome-oriented, relevant, long-term performance
                   measures. To this end, the Department and its agencies have held meetings
                   with OMB, and through the PART process to identify high quality,
                   outcome-oriented performance measures for all programs. In addition,
                   guidance for the FY 2006 budget process focuses on the need for agencies to
                   work with OBPA and OMB to finalize all PART reviews and continue to
                   address PART findings from prior years. Guidance for the FY 2006 agency
                   estimates requires that each program area specifically identify key items
                   such as: how program activities link to the strategic goals/outcomes and the
                   means and strategies employed to meet the objectives. This guidance also
                   requires an analysis of past performance, which includes a discussion of
                   successes and shortfalls, as well as the plans to resolve the shortfalls.
                   Additional guidance for the Quarterly Report requires submission of
                   information on key milestones reached during the quarter, any shortfalls or
                   performance that was beyond expectations, and the progress on major
                   projects.

                   OIG Position.

                   We accept OBPA/OCFOs’ management decision. No further action is
                   needed to achieve final action for this recommendation.




USDA/OIG-A/50601-0006-Ch                                                               Page 20
Scope and Methodology
                  The audit was conducted at USDA Headquarters in Washington, DC. The
                  Department GPRA reports that were within the original scope of our audit
                  were the strategic plan for FY 2002-2007, issued in September 2002; the
                  FY 2003 APP and Revised Plan for FY 2002, issued in March 2002; and the
                  FY 2002 PAR, issued in January 2003. We expanded our scope to include
                  subsequent Departmental publications, including the FY 2004 APP and
                  Revised Plan for FY 2003, issued in May 2003 and later the FY 2003 PAR,
                  issued in January 2004. However, we only performed sufficient testing as
                  deemed necessary, to support continuity of issues as identified within the
                  original scope of our audit, or to justify giving the Department credit for
                  improvements when identified.

                  In October 2003, we met with the CFO and members of his staff, and
                  discussed the results of our audit. In addition to the work that was completed,
                  the CFO suggested we expand our work to include a review of the
                  Department’s implementation of BPI. We expanded our scope to include the
                  new BPI process and its related internal controls. As part of this expansion,
                  we performed tests on the FY 2005 Department Estimates, issued in
                  September 2003. At the close of the expanded review, we met with OBPA
                  officials in early March 2004 to discuss our results, which predominantly
                  remained the same as reported to the CFO in October 2003, but included our
                  concern regarding the existence of a second performance system for BPI.

                  Our audit was conducted in accordance with generally accepted government
                  auditing standards. To accomplish the audit objective, we performed the
                  following:

                  •   Reviewed applicable laws, regulations, and guidance concerning
                      performance management.

                  •   Reviewed USDA’s policies, procedures, and controls over its
                      performance management processes.

                  •   Interviewed OCFO and OBPA officials, five judgmentally selected
                      DWPT members and OBPA analysts, and performance management
                      coordinators at two agencies, Rural Development and the Food and
                      Nutrition Service to determine their level of responsibility or function in
                      terms of the internal control process, and assess any actions taken with
                      regards to USDA’s performance management process.




USDA/OIG-A/50601-0006-Ch                                                                Page 21
                  •   Reviewed USDA’s GPRA plans and reports (as noted above), and
                      supporting information to determine if USDA met requirements of the
                      Act and OMB Circular A-11.

                  •   Conducted tests of performance goals, indicators, and targets in USDA’s
                      performance plans and reports to determine adherence to applicable
                      requirements.

                  •   Conducted research of published sources in order to identify related
                      GPRA practices, other assessments of USDA’s performance management
                      processes, and specific audit reports by OIG and GAO.

                  •   Analyzed USDA’s BPI implementation plans and accomplishments and
                      compared these against published OMB standards of achievement.




USDA/OIG-A/50601-0006-Ch                                                             Page 22
                                                             REQUIREMENTS                                                                           ACTIONS THAT NEED TO BE COMPLETED…
                                                                                                                                                                                                     PLANNED ACTIONS (According to       Is the plan
                                                                                                                                                                                                                                                              Current Responsible
                                                                                                                     ACTIONS COMPLETED                                                                 USDA's annual "Proud to Be"      adequate to
                                        RED                      YELLOW                                                                                                                                                                                       Status    Parties
                                                                                                 GREEN                                                                                               document, goals for July 1, 2004) make progress?
                               (No part of the BPI       (BPI initiative partially                                                                TO GET TO YELLOW             TO GET TO GREEN
                                                                                      (BPI initiative achieved)
                              initiative achieved)              achieved)




                                                                                                                                               * ensure that the
                                                                                                                                               quarterly reports
                                                                                                                                                                                                                                                   NO
                                                      Senior managers meet at        Senior managers meet at                                   integrate financial and
                                                                                                                                                                                                                                          The plan was to
                                                      least quarterly to examine     least quarterly to examine                                performance
                                                                                                                                                                                                     * Q3/2003: senior agency             have all steps of
                           Senior managers do not     reports that integrate         reports that integrate       Instructions were issued     information, and cover
                                                                                                                                                                                                     managers will meet at least          the requirement
                           have a regular process for financial and                  financial and                jointly by OBPA and          some of the major
                                                                                                                                                                                                     quarterly to examine reports that     accomplished
                           considering financial and performance information         performance information      OCFO in March 2004 for       responsibilities of the  * ensure that the
                                                                                                                                                                                                     integrate financial and              by June 30, 2003
                           performance information that covers some of the           that covers all major        the quarterly reports that department                 quarterly reports cover                                                                       OCFO and
                                                                                                                                                                                                     performance information                    (end of        Red
                           when making decisions      major responsibilities of      responsibilities of the      integrate financial and      * senior managers        all major responsibilities                                                                     OBPA
                                                                                                                                                                                                     * Q3/2003: senior agency             Q3/2003). As of
                           regarding the              the Department. This           Department. This             performance information. meet quarterly to            of the department
                                                                                                                                                                                                     managers will use such reports in    March 2004, only
                           management of agency information is used to               information is used to       The first reports are due to examine the




USDA/OIG-A/50601-0006-Ch
                                                                                                                                                                                                     making decisions regarding the        the instructions
                           programs;                  make decisions regarding       make decisions regarding     OBPA on April 28, 2004.      integrated reports
                                                                                                                                                                                                     management of the programs            for the process
                                                      the management of              the management of                                         * use the information in
                                                                                                                                                                                                                                             have been
                                                      agency programs;               agency programs;                                          the reports to make
                                                                                                                                                                                                                                                issued.
                                                                                                                                               management
                                                                                                                                               decisions




                                                                                  Strategic plans contain a
                           Strategic plans contain
                                                                                  limited number of
                           too many goals and
                                                       Strategic plans contain a outcome-oriented goals
                           objectives to provide a                                                                                              * verify that the annual
                                                       limited number of          and objectives. Annual
                           clear and focused                                                                    The new Strategic Plan for      budget and                                                                                       NO
                                                       outcome-oriented goals budget and performance                                                                        * implement the
                           statement of Agency                                                                  FY 2002 - 2007 contains a       performance                                                                                Actions that
                                                       and objectives. Annual     documents incorporate                                                                     quarterly report process * Nothing in the annual plan                                     OCFO and
                           priorities. Performance                                                              limited number of               documents                                                                                  need to be          Red
                                                       budget and performance all measures identified in                                                                    identified in the first  regarding this requirement                                        OBPA
                           measures included in                                                                 outcome-oriented goals          incorporate all                                                                           completed are
                                                       documents incorporate      the PART and focus on the                                                                 requirement above
                           annual budget and                                                                    (5) and objectives (13).        measures identified in                                                                    not in the plan.
                                                       all measures identified in information used in the
                           performance documents                                                                                                the PART process
                                                       the PART process;          senior management
                           do not meet the
                                                                                  report described in the first
                           standards of the PART;
                                                                                  criterion;


                                                                                                                                                                                                                                               NO
                                                                                                                                           Performance appraisal
                                                                                                                                                                            Performance appraisal                                         The actions
                                                                                                                                           plans for SES and
                                                       Performance appraisal         Performance appraisal                                                                  plans for at least 60% of                                    planned only
                           Performance appraisal                                                                                           managers:
                                                       plans for SES and             plans for at least 60% of                                                              agency positions:                                             apply to SES
                           plans do not link to                                                                                            * link to agency                                           * Q3/2003: OHRM will assess the
                                                       managers link to agency       agency positions link to  "Performance appraisal                                       * link to agency mission,                                    positions. The
                           agency mission, goals                                                                                           mission, goals and                                         effectiveness of the revised SES
                                                       mission, goals and            agency mission, goals     plans for senior executives                                  goals and outcomes                                           plan needs to
                           and outcomes, effectively                                                                                       outcomes                                                   performance appraisal system
                                                       outcomes, effectively         and outcomes, effectively and managers are being                                       * effectively                                                    include                  OHRM and
                           differentiate between                                                                                           * effectively                                              * Q4/2004: any needed changes                            Red
                                                       differentiate between         differentiate between     revised to incorporate                                       differentiate between                                         managers in                   OBPA
                           various levels of                                                                                               differentiate between                                      to the SES performance appraisal
                                                       various levels of             various levels of         linkages to performance                                      various levels of                                           order to get to
                           performance, or provide                                                                                         various levels of                                          system are to be completed by
                                                       performance, and              performance, and          goals and outcomes."                                         performance                                                "YELLOW" and at
                           consequences based on                                                                                           performance                                                Q4/2004
                                                       provide consequences          provide consequences                                                                   * provide                                                   least 60% of all
                           performance;                                                                                                    * provide
                                                       based on performance;         based on performance;                                                                  consequences based                                         positions in order
                                                                                                                                           consequences based
                                                                                                                                                                            on performance                                                  to get to
                                                                                                                                           on performance
                                                                                                                                                                                                                                            "GREEN."


                                                                                  Reports the full cost of        OBPA included in Chapter      * Confirm that the
                           Does not have a                                        achieving performance           13 of USDA's Budget           agencies have
                                                                                                                                                                            * Confirm that the       * Nothing in the annual plan
                           systematic way to           The full cost of achieving goals accurately (+/- 10%)      Manual "steps to identify     reported their full costs                                                                        NO
                                                                                                                                                                            agencies have            regarding this requirement
                           estimate the full cost of   performance goals is       in budget and                   full costs," and generally    accurately (+/- 10%) in                                                                    Actions that
                                                                                                                                                                            accurately estimated     * When asked how OBPA plans to                                   OBPA and
                           achieving performance       accurately (+/- 10%)       performance documents           recognized allocation         both budget and                                                                            need to be          Red
                                                                                                                                                                            (+/- 10%) the marginal   verify the full cost data, OBPA                                  Agencies
                                                                                                                                                                                                                                                                                                              Exhibit A – Budget and Performance Integration Implementation Status




                           goals reported in budget    reported in budget and     and can accurately              methods for various           performance                                                                               completed are
                                                                                                                                                                            cost of changing         stated that "it's up to the agency
                           and performance             performance documents; estimate the marginal               indirect costs. These steps   documents                                                                                 not in the plan.
                                                                                                                                                                            performance goals        to implement it."
                           documents;                                             cost (+/- 10%) of changing      and methods appear to         (performance budget
                                                                                  performance goals;              be adequate.                  and PAR)
                                                                                                                                                                                                                                                                                    Exhibit A – Page 1 of 2




Page 23
                                                            REQUIREMENTS                                                                      ACTIONS THAT NEED TO BE COMPLETED…
                                                                                                                                                                                                PLANNED ACTIONS (According to       Is the plan
                                                                                                                                                                                                                                                 Current Responsible
                                                                                                                  ACTIONS COMPLETED                                                               USDA's annual "Proud to Be"      adequate to
                                        RED                     YELLOW                                                                                                                                                                           Status    Parties
                                                                                               GREEN                                                                                            document, goals for July 1, 2004) make progress?
                               (No part of the BPI      (BPI initiative partially                                                            TO GET TO YELLOW          TO GET TO GREEN
                                                                                    (BPI initiative achieved)
                              initiative achieved)             achieved)

                                                                                                                                           * develop a system to
                                                                                                                                           track efficiency
                                                                                                                                           measures to                                                                                      NO
                                                                                                                                           determine if they have                                                                     Actions that
                                                                                                                                           met this goal            * accurately identify all                                         need to be
                                                                                                                                                                                                For the FY 2005 budget:
                                                      At least 50% of agency                                                               * identify the PARTed    USDA programs                                                   completed are
                                                                                                                                                                                                * at least 20% of programs will
                                                      programs rated by the                                                                programs and the         * identify all efficiency                                       not in the plan.
                                                                                 At least one efficiency                                                                                        have at least one efficiency                                  OBPA and
                                                      PART have at least one                                    None.                      measures that are        measures                                                         Also, planned      Red
                                                                                 measure for all programs                                                                                       measure; AND                    *                             Agencies
                                                      efficiency measure for all                                                           efficiency measures      * verify that all                                               actions cannot
                                                                                                                                                                                                at least 50% of PARTed programs




USDA/OIG-A/50601-0006-Ch
                           Less than 50% of agency programs                                                                                * calculate the % of     programs have at least                                           be completed
                                                                                                                                                                                                will have efficiency measures
                           programs rated by the                                                                                           PARTed programs that     one efficiency measure                                           until there is a
                           PART have at least one                                                                                          have at least one                                                                        system in place
                           efficiency measure;                                                                                             efficiency measure to                                                                      to track this.
                           OR                                                                                                              verify that the % is
                           Agency does not                                                                                                 more than 50%
                           consistently use PART
                           ratings to justify funding
                                                                                                                                                                                                According to USDA's "Proud to Be"
                           requests, management
                                                                                                                                                                                                plan, applicable to the annual
                           actions, and legislative
                                                                                 Uses PART evaluations to       * % of PARTed programs                                                          period ending July 1, 2004,
                           proposals. More than                                                                                            * Reduce the number
                                                                                 direct program                 receiving Results Not                                                           "reviews held with the BPI Board
                           50% of agency programs PART ratings are used to                                                                 of programs receiving
                                                                                 improvements and PART          Demonstrated for more                                                           and OMB staff as part of the FY
                           receive a Results Not      justify funding requests,                                                            Results Not
                                                                                 ratings are used               than two years in a row:                                                        2005 budget development
                           Demonstrated rating for management actions,                                                                     Demonstrated ratings                                                                          NO
                                                                                 consistently to justify        no USDA programs have                               * Reduce the number         process are expected to lead to
                           more than two years in a and legislative proposals.                                                             to less than 50%                                                                           Plan is too
                                                                                 funding requests,              been PARTed yet for                                 of programs receiving       significant improvement in
                           row.                       No more than 50% of                                                                  * Department is not                                                                        vague to                OBPA and
                                                                                 management actions,            more than 2 years in a                              Results Not                 agency goals, objectives and                            Red
                                                      agency programs                                                                      on track to achieve                                                                       achieve the              Agencies
                                                                                 and legislative proposals.     row                                                 Demonstrated ratings        performance measurements.
                                                      receive a Results Not                                                                the requirement (69%                                                                     specific results
                                                                                 Less than 10% of agency        * 13 programs PARTed                                to less than 10%            These steps, in addition to
                                                      Demonstrated rating for                                                              of PARTed programs                                                                         required.
                                                                                 programs receive a             two years in a row, 9                                                           continued review of performance
                                                      more than two years in a                                                             received Results Not
                                                                                 Results Not Demonstrated       programs (69%) received                                                         through the quarterly review
                                                      row.                                                                                 Demonstrated for two
                                                                                 rating for more than two       Results Not Demonstrated                                                        process [see first requirement
                                                                                                                                           years)
                                                                                 years in a row.                two years in a row                                                              above], are expected to be
                                                                                                                                                                                                reflected in PART scores." No
                                                                                                                                                                                                specific plans made.
                                                                                                                                                                                                                                                                                                   Exhibit A – Budget and Performance Integration Implementation Status
                                                                                                                                                                                                                                                                         Exhibit A – Page 2 of 2




Page 24
Exhibit B – Agency Response
                              Exhibit B – Page 1 of 4




USDA/OIG-A/50601-0006-Ch                   Page 25
USDA/OIG-A/50601-0006-Ch   Page 26
USDA/OIG-A/50601-0006-Ch   Page 27
USDA/OIG-A/50601-0006-Ch   Page 28
Glossary of Terms
General goal:          Included in a strategic plan, this goal defines how an agency will carry out
                       its mission over a period of time. The goal is expressed in a manner that
                       allows a future assessment to be made of whether the goal was or is being
                       achieved. The goal may be of a programmatic, policy, or managerial nature.
                       General goals are predominantly outcome goals.

General objective:     Included in a strategic plan, a general objective is synonymous with a
                       general goal.

Outcome goal:          A description of the intended result, effect, or consequence that will occur as
                       a result of carrying out a program or activity.

Output goal:           A description of the level of activity or effort that will be produced or
                       provided over a period of time or by a specified date, including a description
                       of the characteristics and attributes (e.g., timeliness) established as standards
                       in the course of conducting the activity or effort.

PART:                  The Office of Management and Budget’s Program Assessment Rating Tool
                       (PART) is a series of diagnostic questions designed to provide a consistent
                       approach to rating federal programs. Drawing on available performance and
                       evaluation information, the questionnaire attempts to determine the strengths
                       and weaknesses of federal programs with a particular focus on individual
                       program results. It is designed to be evidence based, drawing on a wide
                       array of information, including authorizing legislation, GPRA strategic plans
                       and performance plans and reports, and independent program evaluations.

Performance goal:      Included in the annual performance plan. A target level of performance
                       expressed as a tangible, measurable objective, against which actual
                       achievement can be compared, including a goal expressed as a quantitative
                       standard, value, or rate. Performance goals can be either outcome or output
                       goals.

Performance indicator: Included in the annual performance plan, and is directly associated with a
                       performance goal. A particular value or characteristic used to measure
                       output or outcome.

Performance measure:   A performance goal or performance indicator.

Target level:          A projected level of performance as set out in a performance goal.




USDA/OIG-A/50601-0006-Ch                                                                       Page 29
Informational copies of the report have been distributed to:

Chief Financial Officer                                        (5)
Director, Office of Budget and Program Analysis
       Agency Liaison Officer                                  (1)
Office of the Chief Financial Officer
       Director, Planning and Accountability Division          (1)
Government Accountability Office                               (1)
Office of Management and Budget                                (1)
